Office of Inspector General


September 30, 2014

MEMORANDUM

TO:       	          USAID/M/CFO Deputy Chief Financial Officer, Kent Kuyumjian
                     USAID/Barbados Mission Director, Daniel Smolka
                     USAID/Dominican Republic Controller, Robert Pedraza
                     USAID/Honduras Mission Director, James Watson
                     USAID/Honduras Controller, Robert Arellano

FROM: 	              Regional Inspector General/San Salvador, Van Nguyen /s/

SUBJECT:	            Review of Stage 2 Risk Assessments for the Latin America and Caribbean
                     Region Under Local Solutions (Report No. 1-598-14-001-S)

This memorandum transmits our final report on the subject review. We carefully considered your
comments on the draft report and have included them, without attachments, in Appendix II.

This report contains four recommendations: two to USAID/Barbados, one to USAID/Honduras,
and one to USAID/Washington’s Bureau for Management, Office of the Chief Financial Officer,
Government-to-Government Risk Management Team.

We acknowledge management decisions on Recommendations 1 through 4 and final action on
Recommendation 4, which is closed on issuance of this report. Please provide the necessary
documentation to obtain final action on the remaining recommendations to the Audit
Performance and Compliance Division.

I appreciate the cooperation and courtesy extended to my staff during the review.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlán, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
SUMMARY 

In August 2010, the USAID Administrator announced a set of reforms known as USAID
Forward. USAID Forward promotes

          sustainable development through high-impact partnerships and local solutions. In
          order to achieve long-term sustainable development, we have to support the
          institutions, private sector partners and civil society organizations that serve as
          engines of growth and progress for their own nations. USAID Forward is helping
          us to do that through new models for public-private partnerships and increased
          investment directly to partner governments and local organizations.1

The Local Solutions initiative (previously known as Implementation and Procurement Reform)
attempts to make foreign assistance more sustainable and cost-effective by building local
capacity in the public sector and civil society of partner countries. USAID has already begun
simplifying and streamlining policies and procedures to allow it to work with a broader range of
non-U.S.-based partners.

In March 2012, USAID issued Automated Directives System (ADS) Chapter 220, “Use of
Reliable Partner Country Systems for Direct Management and Implementation of Assistance,” to
highlight its commitment to partner-country ownership. ADS 220 explains how to determine
whether partner-country public financial management (PFM) systems are suitable to implement
assistance.

According to ADS 220, USAID missions and operating units should use the Public Financial
Management Risk Assessment Framework (PFMRAF) to identify and mitigate the fiduciary
risks2 encountered when providing government-to-government assistance under Local
Solutions. The PFMRAF process, developed by USAID’s Office of the Chief Financial Officer
(CFO), includes five stages; the two stages relevant to this review are described below.

Stage 1 Rapid Appraisal. According to ADS 220, the rapid appraisal provides a measure of a
prospective partner country’s “commitment to transparency and accountability in the use of
public funds.” This appraisal helps the mission decide whether to do the more in-depth Stage 2
PFMRAF risk assessment. In particular, according to the Public Financial Management Risk
Assessment Framework General Guidance issued by the CFO on September 26, 2012: “The
rapid appraisal may inform the areas and/or sectors where Stage 2 Risk Assessment(s) should
focus.”

Stage 2 Risk Assessment. According to the General Guidance, during Stage 2 risk
assessments, USAID (typically with help from consultants) not only assesses risks but also
formulates measures to mitigate them. To do that, USAID should:




1
    “USAID Forward At a Glance,” http://www.usaid.gov/usaidforward (accessed on September 23, 2014).
2
  Fiduciary risk is the danger that funds allocated from the budget may (1) lack proper control, (2) be used
for purposes other than those intended, or (3) produce inefficient or uneconomic program results.



                                                                                                          1
	 Conduct risk assessments only after spelling out country development objectives,
   intermediate results, and award mechanisms (contracts, agreements, and grants).

	 Examine PFM systems, particularly those for procurement and inventory management. The
   examination should include limited testing of transactions and review of documents.

	 Evaluate and mitigate any risk identified. Mitigation measures can include capacity building
   and “requirements that government institutions meet specific operational standards prior to
   receiving fund advances or are subject to close program monitoring for viability and realistic
   planning.”

	 Examine the “current capacity, control systems, and day-to-day practices” associated with
   the PFM systems used by the ministries, departments, or agencies involved in implementing
   USAID assistance.

	 Complete a questionnaire detailing areas tested and results.

In June 2013, the Office of Inspector General (OIG) issued a Review of USAID’s Partner-
Country and Local Organization Assessments Under Implementation and Procurement Reform.3
That review covered only one Stage 2 Risk Assessment in the Latin America and Caribbean
Region, USAID/Peru. Therefore, RIG/San Salvador performed this review to determine whether
other missions in the region conducted their Stage 2 risk assessments to meet the requirements
of ADS 220. We chose the three with the most recent Stage 2 risk assessments: Honduras,
Barbados, and Trinidad and Tobago.4

The review found that missions did not comply with all the risk assessment requirements in
ADS 220 (page 4). Examples of shortfalls included the following:

	 Risk assessment testing was insufficient (page 4).

	 Risk areas identified during the Stage 1 rapid appraisal were not evaluated during the Stage
   2 assessment (page 4).

	 Stage 2 questionnaires were incomplete (page 5).

	 Concerns noted during the Stage 2 risk assessment were not evaluated to mitigate risks
   (page 5).

	 Stage 2 risk assessments were completed before development objectives or projects were
   identified (page 6).

To mitigate these concerns, we recommend that:



3
 Review of USAID’s Partner-Country and Local Organization Assessments Under Implementation and
Procurement Reform, Report No. 9-000-13-003-S, June 7, 2013.
4
 The mission in the Dominican Republic is responsible for assessments of Barbados and Trinidad and
Tobago.



                                                                                                2
1. 	 USAID/Barbados update its completed Stage 2 risk assessment by conducting a financial
     review that tests the effectiveness of operational controls of all PFM systems critical to
     program implementation and identifies both risks and appropriate risk mitigation actions
     (page 6).

2. 	 USAID/Barbados assess the potential risk of all the issues noted in work papers but not
     disclosed or evaluated in the assessment report, and determine what mitigation measures
     are necessary (page 6).

3. 	 USAID/Honduras implement a risk mitigation plan to address the lack of documentation for
     the Millennium Challenge Account financial system (page 7).

4. 	CFO update and reissue Stage 2 guidance to clarify the requirement for a completed
    questionnaire on any future risk assessments, and other requirements (page 7).

The previous OIG review recommended that the CFO provide more active oversight and add
quality assurance controls to the assessment process. Implementation of this recommendation
is in process; therefore, we are not making any further recommendations in this area.

Detailed results follow. Appendix I describes the review scope and methodology. Our evaluation
of management comments is on page 8, and management’s comments appear in their entirety
in Appendix ll.




                                                                                             3
REVIEW RESULTS 

Risk Assessments Did Not Comply
With All Requirements
ADS Chapter 220, “Use of Reliable Partner Country Systems for Direct Management and
Implementation of Assistance,” provides policy directives and required procedures for
determining whether partner-country systems are suitable for implementing USAID-funded
assistance. ADS 220 states that approval to use a partner-country system “should be
considered on the basis of identified, assessed, allocated and evaluated risk, and if [granted],
may contain/be subject to risk mitigation measures to address any such risks.”

The review determined that the Stage 2 risk assessments in Barbados, Honduras, and Trinidad
and Tobago did not meet all ADS 220 requirements, as described below.

Risk Assessment Testing Was Insufficient. ADS 220 states that during a Stage 2
assessment, teams

       must examine the current capacity, control systems, and day-to-day practices
       used in the PFM systems in the ministries, departments, or agencies that may be
       responsible for making and carrying out decisions and actions related to the
       assistance USAID will provide. . . . this examination should include such tests of
       PFM systems as necessary to validate the system’s performance and internal
       controls.

However, the mission assessment teams in Barbados and Trinidad and Tobago did not test to
validate the ministries’ systems’ performance and internal controls. The teams reviewed
documents—such as reports from accountants and offices of Audit General, and other available
research materials—and interviewed personnel at the ministries but did not conduct any testing
to confirm that the controls functioned as designed.

Risk Areas Identified During Stage 1 Were Not Evaluated During the Stage 2 Assessment.
The General Guidance states: “USAID should evaluate and mitigate any risk identified.”
However, in Barbados, the Stage 2 assessment team did not evaluate risks identified in the
rapid appraisal.

For instance, the Stage 1 assessment reported that fiscal transparency and internal controls
over the procurement system were weak. The Stage 1 assessment also reported the following
deficiencies:

   No detailed policies and procedures for procurement. 

   No mechanism for complaints, settlement of disputes, or appeals against contract awards. 

   No formal process for assessing suppliers’ capabilities for small-value procurements. 


However, the assessment team did not evaluate the potential risks associated with these issues
during the Stage 2 assessment.




                                                                                                 4
Stage 2 Questionnaires Were Incomplete. The Stage 2 risk assessment guidance requires
missions to complete a document called the Stage 2 questionnaire. The questionnaire is a tool
that assessment teams use to plan work and document results. However, the guidance does
not provide clear instructions on how to complete the questionnaire or the level of detail
required. The assessment teams in Barbados and Trinidad and Tobago did not complete all
sections of their questionnaires, leaving blank critical sections related to the control
environment. Furthermore, simple “no” answers were provided in many sections of the
questionnaire, perhaps indicating that controls did not exist. For example, in response to the
question “Is there evidence that a risk management process exists and allows management to
identify, assess and address existing or potential issues that may hamper the achievement of
the entity’s objectives?” one team wrote “no” without further elaboration. The assessment team
in Honduras did not answer any sections of the required questionnaire.

Concerns Noted During the Stage 2 Assessment Were Not Evaluated to Mitigate Risks.
ADS 220 states:

       All risk management decisions should be made on the basis of identified,
       assessed, and evaluated risk after consideration of the knowledge available at
       the time of the decision. Risk management decisions may require the partner
       country government to undertake appropriate risk mitigating actions. . . . Any
       identified risk must be treated through capacity building, imposition of additional
       controls, or other measures.

For Barbados, the assessment team identified 16 issues in its questionnaire but did not evaluate
their potential risks in order to undertake appropriate risk-mitigating measures. Examples of
these issues include the following:

   Fixed-assets registers have not been kept up-to-date. 

   Bank reconciliations have not been prepared on schedule because of staffing shortages. 

   The Government of Barbados has not completed a formal risk management process. 

   Formal procedures to prevent or detect fraud have not been fully implemented. 

   There is no system to collect or disseminate procurement data for analysis.


In addition, the risk assessment team in Barbados did not evaluate the potential impact of a
scope limitation noted during the Stage 2 assessment—the inability to obtain important
documents. Items not available during the testing were (1) documents to confirm the amount of
cash available to cover obligations, (2) documents related to the reviews conducted of the
procurement system by consultants, and (3) access to the working papers for audits conducted
by the Government of Barbados’s Supreme Audit Institution. Lack of access to these documents
constituted scope limitations, which the team did not resolve or evaluate as deficiencies.

In Honduras, the assessment team noted that the financial system used by the Millennium
Challenge Account5 did not have written policies or documentation related to its design,
maintenance, or modifications. Furthermore, there was no data backup. The team
recommended that the Millennium Challenge Account adopt a different financial system, but the
recommended system also lacked documentation related to its design—for example, technical

5
 The Millennium Challenge Account—Honduras reports to the Office of the President of Honduras. Its
purpose is to implement projects funded by the U.S. Government acting through the Millennium
Challenge Corporation.



                                                                                                5
documentation and manuals for users, system administrators, and support staff. The
assessment team failed to evaluate the potential impact or provide any mitigation measures to
address this risk.

Stage 2 Risk Assessments Were Completed Before Development Objectives Were
Identified. The Stage 2 assessment guidance requires the risk assessments to be conducted
after the mission has set out its country development objectives, intermediate results, and
award mechanisms.

However, the Stage 2 risk assessments for Barbados, Honduras, and Trinidad and Tobago
were completed before the missions completed their Country Development Cooperation
Strategies and laid out the development objectives and other requirements.

The CFO revised the guidance and ADS 220 in July 2014 after our review was conducted to
clarify how the PFMRAF and the design process relate to one another. The guidance no longer
requires that country development objectives, intermediate results, and award mechanisms be
completed prior to conducting a Stage 2 assessment; therefore, we are not making a
recommendation on this issue.

These identified weaknesses occurred because missions lacked experience with Stage 2 risk
assessments. Furthermore, the written guidance provided to the missions was not clear on what
type of testing they should conduct although it required “sufficient testing,” which was not
defined. Additionally, although the guidance requires testing and evaluation of previous risk
assessments when they are used as part of the Stage 2 risk assessment, it does not explain
how to carry them out or how to weigh assessment factors to compare results. The guidance
was not clear on the type of testing or other requirements because USAID’s administration was
strongly pushing for increased Agency-wide government-to-government assistance, and the
assessment framework had to be constructed while it was being deployed. Finally, the quality
control reviews that the CFO’s office completed—according to ADS 220, a support team within
the CFO’s office “ensures quality control and consistency in using the PFMRAF”—were done
quickly and did not identify the problems with the assessments done by Barbados or Honduras
nor provided needed guidance to strengthen the assessment process. The previous OIG review
recommended that the CFO provide more active oversight and add quality assurance controls
to the assessment process. Implementation of this recommendation is in process; therefore, we
are not making any further recommendations in this area.

Approving the use of PFM systems without adequately validating their overall operations, risks,
and internal controls puts USAID funds at risk. To mitigate the concerns noted during the
review, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Barbados update its completed
   Stage 2 risk assessment by conducting a financial review that tests the effectiveness of
   operational controls of all public financial management systems critical to program
   implementation and identifies both risks and appropriate risk mitigation actions.

   Recommendation 2. We recommend that USAID/Barbados assess the potential risk of
   all the issues noted in work papers but not disclosed or evaluated in the assessment
   report, and determine what mitigation measures are necessary.




                                                                                              6
Recommendation 3. We recommend that USAID/Honduras implement a risk mitigation
plan to address the lack of documentation for the Millennium Challenge Account
financial system.

Recommendation 4. We recommend that the Office of the Chief Financial Officer
update and reissue Stage 2 guidance to clarify the requirement for a completed
questionnaire on any future risk assessments, and other requirements.




                                                                                 7
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Barbados, USAID/Honduras, and the CFO agreed
with all but one of what were then five recommendations. We reviewed management’s
comments and the supporting documentation provided and agreed to delete Recommendation 5
from the final report. We acknowledge management decisions on Recommendations 1 through
4 and final action on Recommendation 4. A detailed evaluation of management comments
follows.

Recommendation 1. USAID/Barbados decided to perform a financial review of the public
financial management system of the Ministry of the Environment and Drainage. The mission
anticipated completing this review by December 31, 2014. We acknowledge management’s
decision.

Recommendation 2. USAID/Barbados decided to perform a review of all the issues noted in
the working papers that were not disclosed or evaluated in the assessment report, focusing on
those with major impact on operations and other critical functions. The mission anticipated
completing this review by December 31, 2014. We acknowledge management’s decision.

Recommendation 3. USAID/Honduras decided that, instead of implementing a plan to address
the lack of documentation, it would include the required documentation of the financial system in
the next work plan. It further decided to include the documentation in the user manual by
December 31, 2014. We acknowledge management’s decision.

Recommendation 4. The CFO has revised ADS 220 and the Agency policy directive governing
the PFMRAF, effective July 28, 2014. The policy requires the Stage 2 questionnaire as a step in
completing the Stage 2 risk assessment. In addition, the PFMRAF manual is a mandatory
reference to the policy and requires completion of the questionnaire as a primary source of
evidence for the assessment. We acknowledge the mission’s management decision and final
action.




                                                                                               8
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The review was conducted in accordance with the Council of the Inspectors General on Integrity
and Efficiency’s 2012 Quality Standards for Inspection and Evaluation.

We performed this review as a follow-up to a report issued by OIG’s Performance Audits staff
titled Review of USAID’s Partner-Country and Local Organization Assessments Under
Implementation and Procurement Reform, June 2013. The Regional Inspector
General/San Salvador conducted this review to determine whether missions in the Latin
America and Caribbean Region conducted Stage 2 risk assessments to address the
requirements of ADS 220.

In planning and performing the review, we obtained a listing of all Stage 2 risk assessments
completed in the region and selected a sample of the three most recent ones from: Honduras,
Barbados, and Trinidad and Tobago. The review team obtained documentation supporting the
missions’ approval of the use of partner-country public financial management systems. The
team reviewed the Stage 1 rapid appraisal, the questionnaire supporting the work done by the
missions, concept papers, award documentation, statements of work, risk mitigation plans,
Country Development Cooperation Strategies for the countries evaluated, and other reports.

We reviewed regulations as well as USAID guidelines pertaining to the use of reliable partner-
country systems and Stage 2 risk assessments, including ADS 200 and supplemental guidance.
The review relied on the following sources of evidence: Stage 2 risk assessment reports,
interviews with the controllers’ offices in Honduras and Dominican Republic (the controller’s
office in the Dominican Republic is responsible for overseeing any Stage 1 or Stage 2
assessment for Barbados and Trinidad and Tobago), and documentation maintained by the
CFO in Honduras and Dominican Republic. We conducted fieldwork from January 20 through
February 7, 2014.

Methodology
To answer the review objective, we conducted interviews and reviews of supporting
documentation. We evaluated the oversight by the CFO of the risk assessments. We also
reviewed documentation supporting prospective projects considered by the missions.

Through these interviews and the review of project documentation, the review team determined
whether (1) the assessment included testing of PFM systems as necessary to validate overall
operations and internal controls, (2) the Partner Country Systems team had gathered evidence
that the PFM systems were of acceptable quality, (3) the Partner Country Systems team had
evaluated the day-to-day practices in the applicable ministries, (4) missions had identified their
development objectives prior to the Stage 1 rapid appraisal, and (5) missions had identified and
evaluated vulnerabilities in the PFM system.




                                                                                                9
                                                                                      Appendix II



MANAGEMENT COMMENTS 

                                          Barbados and
                                          the Eastern Caribbean

                                   MEMORANDUM

Date:                       August 11, 2014
To:                         Regional Inspector General/San Salvador, Van Nguyen
From:                       Mission Director, USAID/BEC, Jonathan Conly /s/
Through: 	                  USAID Regional Controller, Robert Pedraza /s/
CC:	                        USAID/M/CFO, Deputy Chief Financial Officer, Kent Kuyumjian
Subject: 	                  Mission Comments on Review of Latin America and Caribbean
                            Region, Stage 2 Risk Assessments Under Implementation and
                            Procurement Reform

On July 22, 2014, RIG/San Salvador issued its draft report of the Review of Latin America and
Caribbean Region Stage 2 Risk Assessments and requested the Mission to provide its review
and comments. The draft report included two recommendations, listed below, which the Mission
desires to respond to in the following manner:

Recommendation 1. USAID/Barbados update its completed Stage 2 risk assessments by
doing a financial review that tests the effectiveness of operational controls of all PFM systems
critical to program implementation and identifies both risks and appropriate risk mitigation
actions (page 6).

Mission comments- USAID/Barbados agrees with the recommendation and wishes to offer the
following clarifications and comments on implementing the recommendation. The Mission notes
that in performing the Stage 2 Risk Assessment for Barbados, it sought and followed the CFO
guidance that was available at that time. Subsequent to completion of the Stage 2 Risk
Assessment for Barbados, the Mission entered into an agreement with the Government of
Barbados (GOB) for a climate change adaptation activity to be implemented through the
Ministry of Environment and Drainage. USAID/Barbados will perform a Financial Review of the
Public Financial Management System as relevant to the Ministry of the Environment and
Drainage in implementing the USAID activity. We anticipate completing this assessment by
December 31, 2014.

Recommendation 2. USAID/Barbados assess the potential risk of all the issues noted in work
papers but not disclosed or evaluated in the assessment report, and determine what mitigation
measures are necessary (page 6).

Mission comments – USAID/Barbados agrees with the recommendation and wishes to offer
the following clarifications and comments on implementing the recommendation. The Mission
will perform a Review of all issues noted in working papers, but not disclosed or evaluated in the



                                                                                               10
                                                                                    Appendix II


assessment report, with Mission’s emphasis on identifying issues with major impact on
operations or other critical functions, and focusing on matching these with appropriate actions
and/or mitigation measures. We anticipate completing this action(s) by December 31, 2014.

The draft report also included a recommendation for the Office of the Chief Financial Officer.
Because this recommendation relates to USAID/Barbados and specifically to the factual
background to USAID/Barbados’ Stage 2 Risk Assessment, we wish to offer a clarification in
this regard.

Recommendation 5. USAID/M/Office of Chief Financial Officer issue written notice to missions
not to proceed with Stage 2 risk assessments until development objectives, intermediate results,
and award mechanisms are completed (page 7).

Mission Comments – Although this recommendation is to the CFO rather than to
USAID/Barbados, we believe, it is important to note that USAID/Barbados did have a specific
development objective formulated prior to undertaking the PFMRAF process with the GOB.

The draft report indicates that the Stage 2 risk assessment for Barbados was completed before
the Mission completed its Country Development Cooperation Strategy (CDCS) and laid out the
development objectives and other requirements. At the time USAID/Barbados and Eastern
Caribbean started the PFMRAF process, it did have in place a five year (2011-2015) strategy,
approved by the LAC Bureau, and a defined Development Objective of Risks to Human and
Natural Assets Resulting from Climate Variability Reduced. It also had in place an Activity
Approval Document (AAD) for the climate change development objective and had identified the
Government of Barbados as a potential implementing partner. Thus, although the Mission did
not yet have a CDCS, per se, approved (it is now working on finalizing a Regional Development
Cooperation Strategy since the Mission manages a regional program), it was operating under
an approved strategy with defined objectives and intermediate results. For that reason, we
believe the risk assessment process was appropriately targeted to a planned activity.

USAID/Barbados appreciates the RIG’s consideration of the Mission’s comments on these
recommendations and look forward to receiving the final audit report. Please let us know if you
need any additional information.




                                                                                             11
                                                                                        Appendix II




MEMORANDUM                                                                   28 August 2014

TO:            Regional Inspector General/San Salvador, Van Nguyen

FROM:          James Watson, Mission Director /s/


SUBJECT:      Management Response to Draft Audit of Latin America and Caribbean Region
              Stage 2 Risk Assessments" (Report No. X-XXX-XX-XXX-X).

Thank you for the opportunity to respond to the draft audit report on the Audit of Latin America
and Caribbean Region Stage 2 Risk Assessments and for the professionalism exhibited by your
staff throughout the audit. Below, please find our comments and management decisions
regarding the proposed audit recommendation:

Recommendation 3: USAID/Honduras implement a risk mitigation plan to address the lack of
documentation for the financial system.

Management Comments: The mission agrees with the recommendation, and the following
steps constitute the implementation of the risk mitigation plan. Millennium Challenge Account-
Honduras (MCA-H) – also known as INVESTH- is in the process of documenting and creating
user manuals for SIGMA, their accounting system. This system interfaces with the Government
of Honduras’s national system, SIAFI. Once completed, this documentation will eliminate the
weakness identified by the Stage 2 Assessment.

The requirement to document SIGMA is being included in the next work plan, which is expected
to be finalized in early September, 2014. In addition, the work plan will ensure adequate
safeguards for the time period prior to full documentation of SIGMA. These steps will include
ensuring that SIGMA has adequate backups of financial and other project information, proper
physical security of IT equipment, and other steps as deemed appropriate. The AOR will ensure
full compliance with this section of the approved work plan via regular site visits. In the previous
progress report, verified by the AOR, MCA-H reported that they have already developed
modules in SIGMA to produce financial information required under their agreement with USAID.
The documentation for this process will be included in the user manual, which is expected to be
finalized before the end of 2014.

Target Completion Date: December 31, 2014




                                                                                                 12
                                                                                          Appendix II




MEMORANDUM

TO: 	          Regional Inspector General/San Salvador, Van Nguyen

FROM: 	        Reginald W. Mitchell, Chief Financial Officer (M/CFO) /s/

SUBJECT: 	     Management Response to Draft Audit of “Latin America and Caribbean Region
               Stage 2 Risk Assessments" (Report No. X-XXX-XX-XXX-X).

Thank you for the opportunity to respond to the draft audit report on the Audit of Latin America
and Caribbean Region Stage 2 Risk Assessments and for the professionalism exhibited by your
staff throughout the audit. In the future, please ensure that all audit reports specific to the Office
of the Chief Financial Officer (CFO) are addressed directly to Reginald W. Mitchell, Chief
Financial Officer, M/CFO. Our comments and management decisions regarding the proposed
audit recommendations follow:

Recommendation 4: We recommend that the Office of the Chief Financial Officer
update and reissue guidance to clarify the requirement for a completed questionnaire on
any future risk assessments.

Management Comments: We agree with the recommendation. ADS 220, Use and
Strengthening of Reliable Partner Government Systems for Implementation of Direct
Assistance, and the agency policy directive governing the Public Financial Management Risk
Assessment Framework (PFMRAF) was revised effective July 28, 2014. The policy requires the
Stage 2 questionnaire as a step in completing the Stage 2 Risk Assessment; and the PFMRAF
Manual which provides implementation guidance and is a mandatory reference to the policy,
elaborates completion of the questionnaire as primary source of evidence for the assessment.

Specifically, the policy includes language requiring the Mission or Operating Unit to develop a
list of PFM risk assessment evaluation criteria (Stage 2 questionnaire) to guide the risk
assessment. The questionnaire presents a comprehensive list of questions by function, criterion
and sub-criteria as a starting point to be evaluated as part of the Stage 2 assessment. The
questionnaire need not be used in its entirety, but rather focused on the areas and questions
considered relevant and within the scope of the respective Stage 2 risk assessment.
Assessment teams may draw from other professional guidelines or checklists to develop a
customized questionnaire. The PFMRAF Manual elaborates that if the questionnaire is
customized, the assessment team should document the rationale and specifics of changes
made. Further, completion of the questionnaire will become the primary source of evidence for
the Stage 2 Risk Assessment. Moreover, the existing format of the questionnaire should be
logically cross-walked or referenced to support information included in the Stage 2 Risk
Assessment report.

Based on the substantive revisions to the policy and implementation guidance, we request the
OIG consider this recommendation closed upon issuance of the audit report.



                                                                                                   13
                                                                                       Appendix II


Target Completion Date: M/CFO requests closure upon issuance of the final report.

Recommendation 5: We recommend that the Office of the Chief Financial Officer issue
written notice to missions not to proceed with Stage 2 risk assessments until development
objectives, intermediate results, and award mechanisms are completed.

Management Comments: We do not agree with this recommendation and recommend its
removal. The July 28, 2014 revision of ADS 220, Use and Strengthening of Reliable Partner
Government Systems for Implementation of Direct Assistance addresses and enhances the
relationship between the Public Financial Management Risk Assessment Framework (PFMRAF)
and the latest version of ADS 201, Planning, which contains the Agency’s project design
guidance. The revision also clarifies that the PFMRAF Stage 2 – Risk Assessment process
includes the following step: At the Concept Paper Stage of project design, the Mission, Project
Design Team, and Partner Government Systems team members identify a clear statement of
the project purpose (aligned with an Intermediate Result in the Country Development
Cooperation Strategy (CDCS) results framework) and identify the partner government entity
counterparts. In addition, ADS 220 (version 3) stipulates that the Stage 2 – Risk Assessment
should not be implemented unless it is part of a broader project design process, documented by
an approved Concept Paper. Therefore, the country development objectives, intermediate
results and award mechanisms need not be finalized when the Stage 2 –Risk Assessment is
being conducted ADS 220 describes PFMRAF as a management assessment tool that informs
and is part of project design. ADS 201 details project design requirements, including the link
between the Results Framework and Logical Framework. ADS 201 also includes the CDCS
process, which requires identification and completion of development objectives and
intermediate results. Though the PFMRAF may inform the CDCS as appropriate, it is neither
required nor designed to inform or influence development objectives or intermediate results.
Missions considering the use of partner government institutions for implementation should strive
to complete Stage 1 Rapid Appraisal (or revisions thereto) in conjunction with the development
or revision of the CDCS. Stage 2 Risk Assessments may commence any time a partner
government entity has been identified in an approved Concept Paper as being actively
considered as an implementing entity. Timing is otherwise at the Mission’s discretion. CDCS is
overseen by the Office of Program, Policy, and Learning (PPL). The Office of the Chief
Financial Officer (CFO), specifically the Government-to-Government Risk Management Team
(G2GRMT), provides quality control and oversight of the PFMRAF process. It would be
inappropriate for CFO or G2GRMT to make determinations related to development objectives,
intermediate results and/or policy thereof which are outside of their purview.

The reference to award mechanisms is confusing and appears out of context. G2G funding
mechanisms with partner governments are not awards, which relate to contractual
arrangements. Though specific G2G mechanisms may be envisioned at the time of Stage 2
Risk Assessment(s), the choice of mechanism need not be determined at this stage and indeed
are often finalized with project design. Thus, it would be inappropriate for Missions to finalize a
funding mechanism before the Stage 2 Assessment is initiated.

Based on the above discussion, we request that RIG close this finding upon issuance of the
audit report, as the recommendation has been addressed.




                                                                                                14
